U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

April 17, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Romilson Batista Ferreira v. William P. Barr, No. 19-1044
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on February 18,
2020. The government’s response is now due, after one extension, on April 22, 2020. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including April 24, 2020, within which to file a response.
This short extension is necessary because, in light of COVID-19, this Office is endeavoring
to minimize risks to the health and safety of our personnel responsible for the filing and service of
paper copies of Court documents by reducing the number of days each week on which the filing
and service of such documents are necessary and on which those personnel must report to work in
person.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-1044
FERREIRA, ROMILSON BATISTA
WILLIAM P. BARR, ATTORNEY GENERAL

JEROME MAYER-CANTU
4287 GILBERT STREET
OAKLAND, CA 94611
415-530-6444
JMAYERCANTU@GMAIL.COM
JEFFREY B. RUBIN
RUBIN POMERLEAU P.C.
1 CENTER PLAZA
SUITE 400
BOSTON, MA 02108
617-367-0077

